-7311
SUPREME COURT OF THE UNITED STATES

ORIGINAL
filed
OCT 2 I 2020

OCTOBER TERM, 202«

JUAN MATTHEWS, PETITIONER
VERSUS
STATE OF LOUISIANA, RESPONDENT^)

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT

CRIMINAL DISTRICT COURT PARISH OF ORLEANS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE
PETITION FOR WRIT OF CERTIORARI
IYour Nam el
17544 Trniica Trace, Louisiana Skate Penitentiary
(Address)
Angola. La. 70712
City. State. Zip Cede!
N/A

RECEIVED
JAN 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION FRISOSISJ3) FOR

¥

Was Louisiana’s Jury verdict Scheme that convicted petitioner in violation to the U.S.C.A. 14th
Amendment of the Louisiana’s Constitution? Standard set forth in Arlington Heights v. Metropolitan
Housing Carp., 429 U.S. 252 (1977); see also Hunter v. Underwood, 471 U.S. 222, 228-31 (1985) and
U.S. v. Fordice, 505 U.S. 717, 732, n.6 (1992X because Louisiana’s majority verdict scheme, introduced
in 1898 to discriminate against black people, continues to have a discriminatory effect against black
people, which is demonstrated by its disparity impact on both black jura’s and black defendants. For the
reasons that exist within Juan Matthews new facts and the finding of the United States Supreme Court in
140 S.Ct. 1390 (2020). Proves without doubt the system employed against petitioner
violates the 14* amendment to the Uuited States Constitution.
Louisiana District Court devised a method to uphold Louisiana’s unconstitutional
discriminatory verdict scheme by denying on the merits without applying the rule of law provided
by the United States Supreme Court under Arlington Heights r. Metropolitan Housing Corp., 429
U.S. 252(1977).

LIST OF PARTIES:
[ X ] All parties appear in the Caption of the ease on the covet'page
[ ] All patties do not appear itt the caption of die case on die cover page. A list of all parties to the
proceeding in the court whose ju<%m ent is the subject of this petition is as follows:

RELATED CASES
1. State v. Wefeh. 2013-0146 (La App. 4th Or. 01/30/14) 133 So.3d 258
2. State v.HaaMon, 2012-375 (La. 4ft Ck. 2013); 122 So.3d 1028.
3. State v. Melvin Made Decided (uucoastitu (tonality of Art i § 17 La Const. 1974)
4.Arlington Heights v. Metropolitan Housing Corp., 429 U.S. 252 (1977);
5. Ranter v. Underwood, 47i U.S. 222, 228-31 (1985).
6. Ramos v Louisiana, 140 S.Ct. 1390

TABLE OF CONTENTS
OPINION BELOW
JURISDICTION
CONSTITUTIONAL AND FEDERAL PROVISION INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX OF APPENDICES

APPENDIX “A”

Louisiana Supreme Court Ruling

APPENDIX “B”
APPENDIX “C
APPENDIX TF

(i

TABLE OF AUTHORITIES
FFJMSBALCASHES:
Arlington Heights v. Metropolitan Housing Corp., 429 U.S, 252
Hunterv. Underwood, 471 U S. 222,228-31
U.S. v. Fordice, 505 U.S. 717
Ramos v Louisiana, 140 S.Ct. 1390
Toca vs Louisiana 135 S.Ct. 1197
Washington v. Davis, 426 U.S. 229
Abbott v. Perez, 138 S.Ct 2305,2325 (2018).
U.S. v. Louisiana, 9 F.3d 1159
Board ofEd of Oklahoma City Public Schools v. Dowell, 498 U.S. 23?
Eifksey v Board of Supervisors, 554 F.2d 139
Strauder v. West Virginia, 100 US. 303
Murray v. Louisiana, 163 U.S. 101
Plessy v. Ferguson, 163 U.S. 537
Johnson v. Louisiana, 406 U.S. 356
Apocaca v. Oregon, 406 U.S. 404
Swain v. Alabama, 380 U.S. 202
State v. Washington, 375 So. 2d 1162
State v. Brown, 371 So. 2d 751
State v. Collie*; 553 So.2d 815
Abbott v. Perez, 138 S.Ct. 2305
CONSTITUTIONAL PROVISIONS
Fourteenth Amendment.
FEDERAL STATUTES)
28 U.S.C. § 1257
federalcourt.rules
Supreme Court Rule 13.1

ill

LOUISIANA CONSTITUTION
Article 1 § 17 of tiie Louisiana Constitution of 1974
1898 Constitution ofLouisiana
1921 Constitution Article VII, § 41
Article 16 of Louisiana’s 1974 Constit ution
La. Const. (1913), art. 116
La. Const (1921), Art.. VII, § 41
LOUISIANA STATE CASES
State v Jussi Matthews Docket No. 356-485
State v. Melvin Maine, No. 13-0-07255
State v. Webb 133 So.3d 258
State v. Plankton 122 So.3d 1028
State v. Bertrand, 6 So.3d 738
STATE STATUTES
LSA. C. Cr. Part. 782(A)
LSA. C. Cr. Part 914
LSA. C. Cr. P

922

LSA. C. Cr. Part 930.8
LSA. C. Cr. P, art 930.4
STATE COURT RULES
Louisiana Supreme Court, La.S.O. Rule 10

IN THE
SUPREME COURT OF THE UNI TED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgm ent below.
OPINIONS BELOW
[ ] For cases from federal court s;
Hie opinion of the United States court of appeals appear at Appendix N/A_ to the petition
and is
[ ] reported at N/A
; of,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Hie opinion of the United States district court appears at Appendix _N/A
petition and is

to the

[ ] report ed at N/A
; or,
[ ] lias been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases Iran state courts;
The opinion of the highest, state court to review the merits appears at. Appendix
the petition and is

”A”

[X] reported at State v. Juan D.Matthews. 2019-KH-01636; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Fourth Circuit Court ofAppeals appears at. Appendix
the petition and is
[X] reported at, State y. Matthews 20J9-ICH-0087; or,
[ ] has been designated for publication but is not yet. reported; or,
[Xj is unpublished.

1

to

to

JURISDICTION
[ N/A J For cases from federal courts:
The date on which the United States Court, ofAppeals decided my case
was N/A
[ N/A J No petitiou for rehearing was timety tiled in 111.5' case.
[ N/A} A timely petition for rehearing was denied by the United States Court of Appeals on the
, aid a copy of the order denying rehearing appears
following date:
at Appendix_
(N/A ] An extension of time to file the petition for writ of certiorari was granted to and
(date) on
A
(date) hi Application No.
including

The jurisdiction of this Court, is invoked under 28 U.S.C. §1254(1).
[X j For cases from state court.:
(N/A | A timely petition for rehearing was thereafter denied on the following date:
______________ , and a. copy of the order denying reheaing appears at Appendix_______.
(N/A j An extension of time to file the petition for writ of certiorari was granted to and
(date) in Application No.
including
(date) 011
A

The jurisdiction of this Court, is invoked under 28 U.S.C. § 1257(a).

2

CD.NS3XIU110JSM^iU^.IEDjKRMiEECi¥ISIQM.IH¥-QL¥ED
Fourteenth Amendment Section 1, to United States Constitution: “..nor shall any state
deprive any person of life, liberty, or property without due process of law...”
Equal Protection under die Fourteenth, to United States Constitution

STATEMENT OF THE CASE
Juan Matthews filed his Post Conviction into the Orleans Parish Criminal District Court
under the new facts exception, Docket number # 356-486, upon a one word denial, LaC.Cr.P. art
928, he filed a writ application, LaC.Cr.P. ait 930.6; to the Louisiana Court of Appeals, Fourth
Circuit, numbers 2019-K-0716, that was subsequently denied review.

Finally he sort

Supervisory writ into the Louisiana Supreme Court, LaS.Ct. Rule 10 under numbers, 2019-KH01636, that was denied review'but Chief Justice would ^p-ant and assigns reasons.

REASONS FOR GRANTING THE WRIT
Words from the petitioner:
Senator John C. Calhoun, of So. Carolina: this racist idea, gave birth to the
unanimous 10-2 grant! jury mentality, a son of rich planters, who served as vice
President of the United States, under two former presidents, John Quincy A dans
and Andrew Jackson. Calhoun shared his latest and greatest pro-slavery strategy
on the floor of Congress, 2”* session February 6, 1837, Speech on Slavery/'
Agitated by a Virginia Senior's earlier reference to slavery' as a “lesser' evil,”
Calhoun, rose to **take higher ground/* Once arid for all, Calhoun wanted to bury
that old antislavery Jeffersonian concept! “1 hold that... the relation now existing
in the slave holding states between the two fmcesj is. Instead of an evil; good
and positive good, "he said.

Calhoun went on to explain drat it was both a

positive good for society and a positive good for subordinate Black people. .
Slavery. Calhoun suggestion, was '"racial progress/*
Within Sitae v. Web% 2013-0146 (La App. 4* Ck 01/30/14); 133 So.3d 258; State v.
Hmikttm. 2012-375 (La 4® Ck. 2013); 122 So.3d 1028, Louisiana Courts wan? introduced to an
issue, that Louisiana Jury verdict Scheme, was created to purposefully discriminate against black
people. Even that this illegal practice was clearly understood, the above indicated defendants
were denied because the court held under the Arimgtm. HeMghts standard, not enough evidence
was provided to establish Louisiana Jury verdict Scheme
discriminate against black people.

was created to purposefully

Juan, the petitioner in the instant case, discovered new facts1 that were used in; SiMe v,
Melvin. Maxic Mefa'rn Maxie who contested the Constitutionality of Louisiana. Jury verdict.
Scheme in the District. Court,, Parish of Sabine, Won?. With legal scholars and expert testimonies
diming an evidentiary hearing in the Sabine Parish District. Court, found under the Arl&tgtm
Hebightestandard Louisiana.jury verdict, scheme was unconstitutional.
However, Juan Matthews could not rely on Mehbi Maxie findings, because it was only
found unconstitutional in the District. Court, Parish of Sabine. This case failed to move to the
Louisiana. Supreme Court., in the same manner this Honorable court, lost, jurisdiction to decide
juvenile retroactivity in Tom vs Louisiana 135 S. Ct. 1197. Whenever a case exist, to correct
Louisiana's erroneous application of law, side deals are made, for that person, and
unconstitutionality are continued to be practiced.

Hon. Gorsuch, in Ramos y Lmiidatta,

reached the same conclusion as the District Court held in Maxie found in Ramos. Louisiana
Jury verdict Scheme was created to discriminate against black people since 1898. In 41 of the 42
Judicial Districts in Louisiana upheld this practice. All (5) Louisiana Circuit Courts of Appeals
upheld this practice and Jussi case denied review in the Louisiana Supreme Court with only the
Chief Justice Johnson dissenting to grant review, shows die complaisance in the application of
illegal and discriminatory practices.
With Juan new evidence, which writ reads like a. story from history. Its ugly, sad and its

time: the poor that are limited in edication and resources, such as petitioner and Offender
Counsel's, pro se Writ of Certiorari be granted to demonstrate everyone rights in this country
should be secured That justice is not for only the free, rich or whites but even two guys
1

The sane evidence Hon. Garsach relied an to conclude Louisiana practice was in violation of the 14*
Ameadmsil to the United States Constitution. See Ramos v Louisiana. 140 S.Ct 1390, footnote ( 1} Official
Journal cf the proceedings of the Constitutional Cconvention of the State of Louisiana 374 (H Hearsey ed 1398);
Eaten, The Suffrage Clause in the New Constitution of Louisa ana, IBHarv. L. Rev 279, 2E&-287 (1899),
' Louisiana v United States, 330 U.S. 145, 151-153, 35 S.Ct 817,13 L.Ed 2d 709 (1365)

(petitioner and his Offender Counsel) whom are incarcerated over 60 years that better- themselves
and now attempting to repair a system of injustice not only for themselves but all citizens and
incarcerated people alike,, in the Orest State of Louisiana.

We asked because under the

Arlitigtoti Heights r. Metropolitan Housing Carp, 429 U.S. 252 (1977); see also Hunter v.
Underwood, 471 U.S. 222, 228-31 (1985). Standard Louisiana Const. 1974, Art 1 § 17 and
LaC.Cr.P. art 782 both were unconstitutional prior to 2017. The statutes with a disparate racial
impact violates the Equal Protection Clause when a substantial or motivating factor behind the
statute was racial discrimination, unless the statute’s defenders can show that it would have been
enacted for race-neutral reasons. Arlbigtan Heights % Metropolitan Housing Carp, 429 U.S.
252 (1977); see also Hunter*. Underwood, 471 U.S. 222,228-31 (1985).
It is not necessary to establish that the challenged legislative action rested solely on
racially discriminatory purposes to demonstrate unconstitutionality.

Arlington Heights r.

Metropolitan Housing Carp, 429 U.S. 265. It can rarely be said that, a legislative hotly “made a.
decision motivated solely by a single concern, or even that a particular purpose was the
‘dominant* or ‘primary* one.” Id. It is sufficient to establish a constitutional challenge that “a
discriminatory purpose has been a. motivating factor in the decision.” Id. at 265-6.
“Determining whether invidious discriminatory purpose was a.motivating factor demands
a sensitive inquiry into such circumstances and direct evidence of intent as may be available.”
Id. at 266. Under Arlingtm Heights, courts must consider five factors to determine whether
discriminatory purpose was a substantial or motivating factor behind a statute: (1) historical
background of the enactment; (2) sequence of events leading to the enactment; (3) legislative
history of the enactment; (4) statements by decision makers; and (5) discriminatory effect 429
U.S. at 267-68.
“Once racial discrimination is shown to have been a ‘substantial* or ‘motivating* factor

behind enactment of the law, the burden shifts to die law’s defenders to demonstrate that the law
would have been enacted without this factor.” Hunter, 471 U.S. at 228; Arlington Heights,429
U.S. at 270, n. 21; Washington v. Davis, 426U.S. 229, 241, (1976).
Petitioner obtain his new facts from Mane. The same evidence Hon. Gorsuch, relied on
to conclude Louisiana practice was in violation of the 14* Amendment to the United States
Constitution. See Ramos v Louisiana. 140 S.Ct. 1390, footnote (1) Official Journal of die
proceedings of the Constitutional Convention of the State of Louisiana 374 (H Hearsey ed 1898);
Eaton, Hie Suffrage Clause in die New Constitution of Louisiana, 13 Harv. L. Rev 279, 286-287
(1899), Louisiana v United States, 380 U.S. 145, 151-153, 85 S.Ct. 817,13 L.Ed 2d 709 (1965).
The greatest issue before die court is. Criminal District Court, Parish of Orleans, with die
presentation of “New Facts” evidence made by the petitioner was denied by the District Court
without, the court: “ th e burden shifts to th e law fs defenders to demonstre&e that the law would
hmebeen etut&edwithout fkisfactor. ”
This part, of the Arlington Heights standard was never a determination in denying
petitioner's post conviction application. The Louisiana Court of Appeals, Fourth Circuit, and
Louisiana. Supreme Court allowed petitioner's 14* amendment U.S.C.A from ever being
reviewed

CONCLUSION
Hie petition for wit of certiorari should be granted

Respectfully Submitted

Date: October 19, 2020

